CERTIFICATE OF WORD COUNT
NO. TBD
Citizens Against Corporate Crime, LLC,
Petitioner,
v.
Lennar Corp.,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the CITIZENS AGAINST
CORPORATE CRIME, LLC PETITION FOR WRIT OF CERTIORARI contains 3984 words, including the parts
of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
May 3, 2021

SCP Tracking: Barnes-700 South Flower Street-Cover White

